Case 4:19-cv-00348-MAC-CAN Document 50 Filed 06/17/21 ^age 1 of 2 PagelD #: 223

EASTERN DISTRICT OF TEXAS

UNITED STATES DISTRICT COURT
BRUCE ALLEN RUTHERFORD #27006-078 §
§

versus

§
§

UNITED STATES OF AMERICA

§

CIVIL ACTION NO. 4:19-CV-348
CRIMINAL ACTION NO. 4:17-CR-41(1)

ORDER OF DISMISSAL
The above-entitled andnumbered civil action was referred to United States Magistrate Judge
Christine A. Nowak, who issued a Report and Recommendation (#47) concluding that the Motion
to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody filed pursuant to 28
U.S.C. § 2255 should be denied and dismissed with prejudice. Movant filed objections (#49).
In the objections, Movant reurges the ineffective assistance of counsel claims that he raised
in the § 2255 motion. Despite his arguments, Movant fails to show that, but for his counsel’s
deficient performance, the outcome of the proceedings would have been different. Strickland v.
Washington, 466 U.S. 668 (1984).

Furthermore, Movant claims for the first time that Counsel

failed to convey plea offers to him, which entitles him to relief. However, issues raisedfor the first
time in objections are not properly before the court and need not be addressed. See United States
v. Armstrong, 951 F. 2d 626,630 (5th Cir. 1992); see also United States v. Cervantes, 132 F. 3d 1106,
1111 (5th Cir. 1998) (district court does not abuse its discretion in refusing to consider new issues
in a § 2255 after the Government filed its response). Movant fails to show the Report and
Recommendation is in error or that he is entitled to habeas relief.
The Report of the Magistrate Judge, which contains proposed findings of fact and
recommendations for the disposition of such action, has been presentedfor consideration, and having
made a de novo review of the objections raised by Movant to the Report, the Court is of the opinion

APPENDIX A

Case 4:19-cv-00248-MA.C-CAN Document 1-1 Filed 05/10/19 Page 4 of 12 PagelD #: 18

Ground Two:

Defense Counsel Edgett was ineffective for failing to file a motion
to suppress the Affidavit to support the search warrant as bare bones
and seriously lacking in probable cause.
Petitioner argues that an Affidavit is bare bones " if it is so
deficient in probable cause that it renders an officer's belief
in its existence completly unreasonable." For example, an affidavit
that merly states that the Affiant "has cause to suppect and does
believe or has received reliable information from a credible person
that contraband is located on the premises" are bare bones.
United States v. McPhearson, 469 F.3d 518 (6th Cir. 2006).

Ground Three: Defense Counsel Edgett was ineffective for failing to file a motion
to compel the Government to comply with the Jenkcs Act 18 U.S.C.
§3500.

Petitioner argues that Counsel Edgett was in effective for failing
to recognize, investigate and assert the the Government failed to
the alleged confession and evindence in support of the Grand Jury
testimony of Detective Jeff Rich at the hearing on March 8, 2017
concerning the alleged statements made byi petitioner.
Brady v. Maryland, 373 U.S. 83, 83, S. Ct. 1194, 10 L Ed, ?d 2T* now
Counsel Edgett's ineffectiveness denied the defense of critical
information as to the actual existence of this evidence and would
have had substantial effect on the outcome of the defense's case.

Ground

Four: Defense Counsel Edgett was ineffective for failing to file a pretrial
motion for a Judgment of Acquittal.

Petitioner argues that failing to file a pretrial motion foa a
Judgment of Acquittal put the defense at a great disadvantage and
unprepared to defend against evidence that was not disclosed by the
failure to enclude in its discovery. This is a-violation of Petitioner's
Sixth and Fourteenth Amendments for Effective Counsel and due process.
Ground Five:

Defense Counsel Edgett was ineffective for failing to inform
Petitioner of plea offers from the Government was Ineffective
Assistance of Counsel.

The Docket shows that the Government had presented plea bargins to
the petitioner that was never disclosed to Petitioner by Counsel Edeett
Cullen v. United States, 194 F.3d 401 (2nd Cir 1999)
Missouri v. Fyre, 182 L Ed.2d 379 (2012).

APPENDIX B

3

Case 4:19-cv-00348-MAC-CAN Document 47 Filed 04/07/21 Page 7 of 12 PagelD #: 210__

any time while the case is pending.” Fed. R. Crim. P. 12(b)(2). A post-conviction motion to dismiss '
an indictment is “in essence, ‘a meaningless, unauthorized motion,’ which the district court [is]
without jurisdiction to entertain.” United States v. Perez, 611 F. App x 210, 211 (5th Cir. 2015)
(quoting United States v. Early, 27 F.3d 140, 142 (5th Cir.), cert, denied, 513 U.S. 1027 (1994)).
Movant’s failure to raise these issues poor to his guilty plea procedurally bars review of the issues
on collateral review.

Shaid, 937 F.2d at 231. Moreover, in direct contradiction to Movant’s

assertions, the record shows that Counsel filed a motion to suppress and a motion in limine. Cnm.
ECF (Dkt. ##30, 31). Therefore, to the extent he complains about Counsel’s failure to file such
motions, he is simply mistaken.
Finally, the Fifth Circuit rejected the issues of whether Movant’s plea was knowing and
whether the Court erred in applying the enhancement provisions to his sentence. Rutherford, 762
F. App’x 178. Thus, these issues may not be relitigated here. Kalish, 780 F.2d at 508.
V. INEFFECTIVE ASSISTANCE OF COUNSEL
Movant asserts he is entitled to relief based on ineffective assistance of counsel claims that
relate to his guilty plea. In the interest ofjustice, the Court will examine those issues in more detail.
A convicted defendant’s claim that counsel’s assistance was so defective as to require
reversal of a conviction requires the defendant to show the performance was deficient and the
deficient performance prejudiced the defense so as to deprive the defendant of a fair trial. Strickland
v. Washington, 466 U.S. 668,687 (1984). “Failure to make the required showing of either deficient
performance or sufficient prejudice defeats the ineffectiveness claim.” Id. at 700. A movant who
seeks to overturn his conviction on the grounds of ineffective assistance of counsel must prove his
entitlement to relief by a preponderance of the evidence. James v. Cain, 56 F.3d 662, 667 (5th Cir.

7
APPENDIX C

Case 4:19-cv-00348-MAC-CAN Document- 1-1 Filed 05/10/19 Page 6 of 12 PagelD #: 20
Ground Thirteen

Defense Counsel Edgett was ineffective for failing to order
the transcripts from the hearing to obtain the search warrant

Petitioner submits that Counsel Edgett was ineffective for failing
to order the search warranr hearing transcripts. The transcripts
would have given the defense better insight into the
getting the search warrant issued. The search warrant

reason behind
affidavit

appears to be bare bones and based on unsupported "hearsay.

Ground Fourteen

Defense Counsel Edgett was ineffective for failing to inform
Petitioner of his defense strategy and prepare Petitioner for
trial.
Petitioner argues that Counsel Edgett failes to inform and
discuss with Petitioner of ant defense strategy that he may
have hadnot meeting with Petitioner for any trial preparation

Ground Fifteen:

Defense Counsel Edgett was ineffective for failing to perform
an inspection and verification of Government’s evidence and
obtain copies of any copies of jforeneic tests ,c reports chain
of custody of the evidence and any tools that were use or
methods used for testing and evaluation. Elmore v. Ozmin,
661 F.3d 783.

Ground Sixteen:

Defense Counsel Edgett was ineffective for fail to withdraw
Petitioner's guilty plea after th£ee separate requests to do so.
Petitioner argues that Counsel Edgett was ineffective for failing
to withdraw Peritioner's guilty plea after three separate requests
to do so. Petitioner did not receive any response from Counsel on
any of the requests. Holtan v. Parrarr, 683 F.2d 1163 (11th Cir 1982).
Petitioner filed a complaint with the Texas Bar Association

APPENDIX D

6

15

1

wrong?

2

THE DEFENDANT:

3

THE COURT:

4

THE DEFENDANT:

5

THE COURT:

6
7
8
9
10

What?

And did — what age

children were depicted in that child pornography?
THE DEFENDANT:

I

I don't know the exact ages,

but they were — my guess is under 12.
THE COURT:

And did they appear to be

prepubescent?
THE DEFENDANT:

12

THE COURT:

14

— child pornography.

All right,

11

13

Possession of

I believe so, yes.

All right,

And what quantity

approximately did you possess?
THE DEFENDANT:

I

I know that there were I

15

think several

four or five,

16

can't remember.

There was too many.

17

THE COURT:

six videos -- honestly,

Well, but you have here in your

18

factual basis a particular amount, more than 600 images

19

and videos.

Is that correct?

20

THE DEFENDANT:

21

MS. MILLER:

22

I

Yes.

Yes, ma'am.

Your Honor,

if I might clarify.

Just

. for purposes of that calculation, each video constitutes

23

75 images.

24

as well as incomplete downloads, as well as deleted

25

images and videos.

I do note, too, that there were both saved,

•fiR-YN—&—&S-S-6 6T A T E S
(903) 712-2273
APPENDIX E

©ntteb States Court of Appeals
for tfje JftftI) Circuit

United States Court of Appeals
Fifth Circuit

FILED

March 29, 2021

No. 20-40619

Lyle W. Cayce
Clerk

United States of America
Plaintiff—Appellee,
versus
Bruce Allen Rutherford
Defendant—Appellant.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 4:17-CR-41-1

Before Willett, Ho, and Duncan, Circuit Judges.
Per Curiam:*
Bruce Allen Rutherford, federal prisoner # 27006-078, has moved for
leave to proceed in forma pauperis (IFP) on appeal from the denial of his selfstyled motion under Federal Rule of Civil Procedure 52 in which he contested
the factual basis supporting his guilty plea conviction for possession of child
pornography. To appeal IFP, Rutherford must make the necessary economic

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

APPENDIX F

No. 20-40619

showing and assert nonfrivolous issues on appeal. See Carson v. Polley, 689
F.2d 562, 586 (5th Cir. 1982); see also Baugh v. Taylor, 117 F.3d 197, 202 (5th
Cir. 1997); Fed. R. App. P. 24(a).
Regardless of whether he is able to afford the costs of litigation without
undue hardship or deprivation of life’s necessities, see Adkins v. E.l DuPont
deNemours & Co., 335 U.S. 331,339 (1948), Rutherford has not raised a claim
that is arguable on the merits, see Howard v. King, 707 F.2d 215, 220-21 (5th
Cir. 1983). He effectively seeks to appeal from a motion that is unauthorized
or meaningless or that does not permit him to obtain the relief that he seeks.
See, e.g. United States v. Early, 27 F.3d 140,142 (5th Cir. 1994). Federal Rule
of Civil Procedure 52 does not apply to criminal matters, see Fed. R. Civ.
P.1;Fed. R. Civ. P. 52, and Federal Rule of Criminal Procedure 52, which
does apply, is inapposite and does not provide a basis for Rutherford to attack
collaterally his conviction,^ Fed. R. Crim. P. 52; United States v. Frady,
456 U.S. 152, 163 (1982). If the motion was treated as a 28 U.S.C. § 2255
motion, his challenge to the factual basis would not be cognizable because he
unsuccessfully raised a similar claim on appeal. See United States v. Kalish,
780 F.2d 506, 508 (5th Cir. 1986). Because he has a § 2255 motion pending
in the district court, any possible amendment or filing implicating that motion
should be presented in connection with that ongoing proceeding. See Fed.
R. Civ. P. 15(a)(1), (2). Rutherford otherwise has not shown that he has a
nonfrivolous challenge to the disposition of his motion. See Howard, 707 F.2d
at 220-21.
Accordingly, the appeal is DISMISSED as frivolous. See Baugh, 117
F.3d at 202 n.24y Howard, 707 F.2d 220-21; see also 5th Cir. R. 42.2. The
IFP motion is DENIED. See id. Rutherford is ORDERED to pay a
sanction of $100 to the clerk of this court, and he is BARRED from filing in
this court or any court subject to this court’s jurisdiction a challenge to his
conviction and sentence until the sanction is paid, unless he obtains leave of

APPENDIX F-2
2

No. 20-40619

the court in which he seeks to file such challenge. Rutherford is once again
WARNED that any repetitive or frivolous filings in this court or any court
subject to this court’s jurisdiction will invite the imposition of further
sanctions, including dismissal, monetary sanctions, and restrictions on his
ability to file pleadings in this court and any court subject to this court’s
jurisdiction.

APPENDIX F-3
3

(5)

Affiant states that on Setember 5, 2017, I was at the Federal Courthouse
in Plano, TX waiting for my trial to start. Counsel Edgett came into the
holding area to

talk to me. Counsel Edgett told me that if I went through

with the trial I was going to loose and I would get 20 years.

I asked Mr.

Edgett why I would loose, I wasn't guilty of anything. Mr. Edgett said that
the images were found on a computer that I owned. I told Mr.edgett that I
I didn't know that they were there. Mr.Edgett

said that if I changed my

plea to guilty I would only get 5 years, what do I want to do. I told him
that I didn't want

either one but

5 years is better then 20. It sounds::

-like I don't have any choice. I asked Mr. Edgett what I needed to do. He
said that he

would take care of it and he would be right back.

Mr. Edgett came back a few minutes later and told me we were going into
the courtroom to change my plea and he

would guide me through it so that

the judge would accept mu guilty plea. I
just as he

told me to. I

answered

the judges questions

knew nothing about the law, thats

why I hired

an attorney.

(6)

Counsel Edgett not only gave me false information to get me to change my
never told me about the consequences and the constitional rights

plea, He

I would be loosing by changing my plea to guilty.

(7)

Counsel Edgett's statements to me concerning the 5 year sentence was
completely false. I received
Edgett

a 150 month sentence. I do not

believe Mr.

had developed any kind of defense and was competely unprepared for .

for my defense.

After,! changed my plea, I was returned to Fannin County Jail. , During,?the
*

.

' ^

*,r

,

*

...

—

..

t1

'

''i'

i1','

.

.

.

■

• 1 *!'>•»

course of the next two to three weeks I was learning about what I had
given up by changing my plea to guilty. Counsel Edgett

never told me

anything about any of this. Over the next 3 months I wrote
3 letters telling him I wanted him to

Mr. Edgett

withdraw my guilty plea. I didn't

get any response from Mr. Edgett on any of

the letters. I finaly filed a

a complaint with the Texas Bar Association listing several complaints.
I had no communication from Mr. Edgett

for slmost

tff&dvnc 6
2

eight

months.

